PROOF OF SERVICE

I, Frederick W. Claybrook, Jr., a member of the bar of this Court, hereby certify that
on the 3rd day of September, 2021, three (3) copies of the Brief Amici Curiae of the
Assembly of Canonical Orthodox Bishops of the United States of America, et al., in
support of the Petitioners in No. 21-164, Trustees of the New Life In Christ Church,
Petitioner v. City of Fredericksburg, Virginia; were served by first-class mail,
postage pre-paid, on the following:
Allyson Ho

Counsel for Petitioner
Gibson, Dunn & Crutcher LLP
2001 Ross Avenue
Suite 2100
Dallas, TX 75201
Kathleen Dooley
Counsel for Respondent
Fredericksburg City Attorney
600 Caroline Street
Fredericksburg, VA 22401

/s/ Frederick W. Claybrook, Jr.
FREDERICK W. CLAYBROOK, JR.
Counsel of Record
CLAYBROOK LLC
700 Sixth St., N.W., Ste. 430
Washington, D.C. 20001
tel. (202) 250-3833
Rick@claybrooklaw.com

